!

16

STATE OF TENNESSEE v. LARRY BURT SEXTON
SUPREME COURT OF TENNESSEE, AT NASHVILLE
2020 Tenn. LEXIS 209
No. M2018-00874-SC-R11 -CD
March 26, 2020, Filed
Notice:
DECISION WITHOUT PUBLISHED OPINION
Editorial Information: Prior History
Circuit Court for Lawrence County. No. 33355.State v. Sexton, 2019 Tenn. Crim. App. LEXIS 707 (Tenn.
Crim. App., Nov. 5, 2019)
Opinion

ORDER
Upon consideration of the application for permission to appeal of Lany B. Sexton and the record
before us, the application is denied.
PER CURIAM

tnhot

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX B

17

STATE OF TENNESSEE v. LARRY SEXTON
COURT OF CRIMINAL APPEALS OF TENNESSEE, AT NASHVILLE
2019 Tenn. Crim. App. LEXIS 707
No. M2018-00874-CCA-R3-CD
July 16, 2019, Assigned on Briefs
November 5, 2019, Filed
Editorial Information: Prior History

Tenn. R. App. P. 3 Appeal as of Right; Judgment of the Circuit Court Affirmed. Appeal from the Circuit Court
for Lawrence County. No. 33355. Robert L. Jones, Judge.

Disposition:
Judgment of the Circuit Court Affirmed.
M. Wallace Coleman, Jr., Lawrenceburg, Tennessee, for the appellant, Larry Sexton.
Herbert H. Slatery III, Attorney General and Reporter; Renee W. Turner, Senior Assistant Attorney
General; Brent A. Cooper, District Attorney General; and Gary Howell and Christie Thompson, Assistant District
Attorneys General, for the appellee, State of Tennessee.
Counsel

Judges: NORMA MCGEE OGLE, J., delivered the opinion of the court, in which THOMAS T. WOODALL and
ALAN E. GLENN, JJ., joined.

CASE SUMMARY In aggravated statutory rape case under Tenn. Code Ann. § 39-13-506(c), State was properly
allowed to reopen its proof and to recall investigator in order to present additional proof of defendant's age as an
injustice was not done to defendant as the State already had presented circumstantial that defendant was at least
10 years older than victim.
OVERVIEW: HOLDINGS: [1]-The trial court did not err in allowing the State to reopen its proof and to recall
the investigator in order to present additional proof of defendant's age as an injustice was not done to defendant
because, for purposes of aggravated statutory rape under Tenn. Code Ann. § 39-13-506(c), the State was required
to prove that defendant was 10 years older than the victim; and the State already had presented circumstantial
evidence that defendant was at least 10 years older than the victim; [2]-The trial court properly used defendant's
six prior convictions in Florida to sentence defendant as a Range III, career offender to 12 years in confinement
under Tenn. Code Ann. § 40-35-108(a)(3), (c), 40-35-112(c)(4) because reliable hearsay was admissible in a
sentencing hearing under Tenn. Code Ann. § 40-35-209(b); and a presentence report was considered reliable
hearsay.

OUTCOME: Judgment affirmed.

LexisNexis Headnotes

Criminal Law & Procedure > Trials > Motions for Acquittal

Term. R. Crim. R 29(b) provides that a defendant may make a motion or the trial court may order a judgment of
acquittal after the evidence on either side is closed.

Criminal Law & Procedure > Trials > Burdens of Proof > Prosecution

Criminal Law & Procedure > Trials > Judicial Discretion

The decision of whether to reopen the proof for further evidence is within the discretion of the trial court, and the
decision of the trial court will not be set aside unless there is a showing that an injustice has been done.

Criminal Law & Procedure > Sentencing > Imposition > Apprendi Rule

Criminal Law & Procedure > Sentencing > Ranges

A defendant is a career offender if the defendant has received at least six prior felony convictions of any
classification if the defendant's conviction offense is a Class D or E felony. Tenn. Code Ann. § 40-35-108(a)(3).
If a trial court determines that a defendant is a career offender, the defendant shall receive the maximum
punishment in the range fora Range III offender. Tenn. Code Ann. § 40-35-108(c). The maximum punishment
for a Range III offender convicted of a Class D felony is 12 years. Tenn. Code Ann. § 40-35-112(c)(4).

Criminal Law & Procedure > Sentencing > Presentence Reports

Evidence > Hearsay

Criminal Law & Procedure > Sentencing > Imposition > Evidence

Tenn. Code Ann. § 40-35-209(b) provides that in a sentencing hearing, reliable hearsay is admissible as long as a
defendant is accorded a fair opportunity to rebut any hearsay evidence so admitted. A presentence report has
consistently been held to be reliable hearsay.

Opinion

Opinion by:

Opinion

NORMA MCGEE OGLE

A Lawrence County Circuit Court Juiy convicted the Appellant, Larry Sexton, of aggravated statutory rape, a
Class D felony, and the trial court sentenced him as a Range III, career offender to twelve years in confinement.
On appeal, the Appellant contends that the trial court erred by allowing the State to reopen its proof after he
moved for a judgment of acquittal and by sentencing him as a career offender. Based upon the record and the
parties' briefs, we affirm the judgment of the trial court.

OPINION

I. Factual Background

In July 2015, the Lawrence County Grand Jury' filed a two-count indictment, charging the Appellant with rape
and contributing to the delinquency of a minor. The State later indicted him for aggravated statutory rape and
nolle prosequied the first two counts. The Appellant went to trial for aggravated statutory rape in November
2017.
At trial, the victim's mother testified that in May 2015, she was living in Loretto with her son and two daughters,
one of whom was the victim. The victim was bom in April 1999 and was sixteen years old. On the night of May
9, the victim's mother and her children were at their home. Jimmy Joyner and his son, Bryce, also were there. At
some point, the Appellant arrived in his new pickup truck. The victim's mother said that she had known the
Appellant for two years, that he was a friend, and that his daughter was about one year older than the victim. The
victim and the Appellant's daughter went to the same high school and spent the night at each other’s houses from
time to time.

The victim's mother testified that the Appellant offered to take Bryce 1 and the victim for a ride in his truck. The
three of them left in the truck and were gone fifteen to twenty minutes. When they returned, the victim's mother,
Jimmy, and Bryce decided to go to The Cowpen in St. Joe's to play pool. The Appellant was still at the house
when they left, but he was getting ready to leave.

The victim's mother testified that she drove to The Cowpen. However, no one was there, so she drove across the
street to Parker's bar. Only a few cars were in the bar's parking lot, so she decided to show Bryce some land she
owned on Union Hill Road. The victim's mother and the Joyners left Parker's bar about 11:20 p.m., and the drive
to the property took about twenty-five minutes. When they arrived at the property, the victim's mother drove
toward a shed that she used as a cabin. The cabin had a deck on it. The victim's mother saw the front of the
Appellant's truck turned toward the cabin, and the truck's headlights were shining on the deck. The victim was
lying on her back on the deck, and the Appellant was on top of the victim. They were not wearing any clothes.
The victim's mother said that the Appellant "spun off' tire victim and headed toward his truck and that she
assumed he was going to get some clothing. The victim's mother got out of her vehicle and "took off after him."
She said that she hit him more than one time and that she "called him all kinds of names."

The victim's mother testified that Bryce helped the victim get into her mother's vehicle. The victim's mother said
that the victim was "somewhat incoherent" and that "[y]ou could tell she was intoxicated and she just wouldn't
answer us." The victim was not intoxicated when her mother and the Joyners left to go to The Cowpen.

The victim's mother testified that the Appellant got dressed and started saying he was sorry. He got into his truck,
the victim's mother got into her vehicle, and the victim's mother called 911. The Appellant drove awa}', and the

victim's mother drove back to Union Hill Road to wait for the police. She saw the Appellants truck pull into a
driveway on Union Hill Road, so she blocked his truck with her vehicle. She said she "tried to jerk him out of
the truck" and "scratched out at his eyes." The police arrived ten to fifteen minutes later.

On cross-examination, the victim's mother acknowledged that the victim had two Facebook pages. One of the
pages was still accessible to viewers, but the victim no longer used the page. The page showed the victim's
birthdate as April 13, 1990. The second page was the victim's active Facebook page and showed her birthdate as
April 13, 1996. The victim's mother said that sometime in April 2015, she rode with the Appellant to a friend's
house. She denied having a sexual relationship with him.
The victim's mother testified that beer was in her home and that she began drinking beer about 11:00 p.m. on
May 9, 2015. She said that she did not see the victim drink any alcohol and denied telling the police that she
allowed the victim to consume vodka that night.
Sergeant Timothy Vess of the Lawrence County Sheriffs Department (LCSD) testified that just before midnight
on May 9,2015, he responded to a call on Union Hill Road about a juvenile female who had been sexually
assaulted. When Sergeant Vess arrived, the victim's mother was yelling at the Appellant, who was sitting in his
truck and was wearing only a pair of shorts. Sergeant Vess separated the victim's mother and the Appellant and
asked the Appellant if he had had sex with the victim. The Appellant said yes but that he did not know she was
underage. Sergeant Vess called an ambulance for the victim but did not speak with her.

Heather Wilson testified that she was a registered nurse at Crockett Hospital. In the early morning hours of May
10, 2015, Wilson was called to the emergency room and was present while a doctor collected evidence from the
victim for a sexual assault kit. The evidence consisted of a blood sample, vaginal swabs, oral swabs, and pubic
hair combings. The victim's underwear was not with her and was collected at the scene of the alleged assault.
Wilson said that die victim attempted to walk to the bathroom and that the victim was "very wobbly." The victim
also was "very sleepy the entire time."
Investigator Jeff Dunn testified that on May 9, 2015, he was a criminal investigator with the LCSD and
responded to the scene on Union Hill Road. An ambulance was leaving with the victim as he arrived.
Investigator Dunn learned that the alleged assault had occurred at another location, so he and two other officers
went "just a short distance down the road." Investigator Dunn saw a wood outbuilding with a porch. Two
blankets, some clothing, and what appeared to be a used condom were on the porch. He also saw a used condom
wrapper and a box of condoms that had been "ripped open." The box was supposed to contain three condoms,
but only two wrapped condoms were in the box.
Investigator Dunn testified that he swabbed the inside and the outside of the used condom. He later collected oral
swabs from the victim and the Appellant and sent all of the swabs to the Tennessee Bureau of Investigation (TBI)
Crime Laboratory. He also collected the victim's sexual assault kit and sent it to the TBI. Investigator Dunn tried
to talk with the victim that night, but she was unable to give him any information about the incident.

Heather Lenzy of the TBI Crime Laboratory testified as an expert in forensic biology and analysis that she
an alyzed the evidence collected in this case and that the condom found on the porch was not suitable for analysis
because it was "covered in mold." She analyzed the swab of the outside of the condom, and the swab was
negative for semen. The swab of the inside of the condom showed the presence of semen but not sperm. She
stated that finding semen without sperm was not unusual and could be explained by a vasectomy, a low sperm

count, or "a very small amount of semen" in the condom. The oral and vaginal swabs from the victim's sexual
assault kit did not show the presence of semen.

Carrie Schmittgen, a special agent forensic scientist with the TB1, testified as an expert in forensic biology that
she analyzed the condom swabs for DNA. DNA on the swab of the outside of the condom matched the victim,
and DNA on the swab of the inside of the condom matched the victim, the Appellant, and an unknown
individual. Agent Schmittgen acknowledged that the presence of DNA from a third person could have resulted
from the swab's collection process. On cross-examination, Agent Schmittgen acknowledged that the Appellant's
DNA was not on the swab of the outside of the condom.

The State recalled Investigator Dunn to the stand. According to the Appellant's driver's license information, he
was born in March 1972.

The juiy found the Appellant guilty of aggravated statutory rape, a Class D felony. After a sentencing hearing,
the trial court sentenced him as a Range III, career offender to twelve years to be served at sixty percent release
eligibility.

II. Analysis

A. Recall of Investigator Dunn

The Appellant contends that the trial court erred by allowing the State to reopen its proof after he moved for a
judgment of acquittal so that Investigator Dunn could testify about his age. The State argues that the trial court
acted within its discretion when it allowed the State to recall Investigator Dunn and that, in any event, the proof
was sufficient to show that the Appellant was much older than the victim. We conclude that the trial court did not
abuse its discretion by allowing the State to reopen its proof.

At the conclusion of Agent Schmittgen's testimony, the trial court dismissed the jury for the day, and the State
advised the court that it did not intend to call any additional witnesses. When court resumed the next day, the
trial court asked the prosecutor "if the State was, in fact, resting its proof-in-chief," and the prosecutor
responded, "[W]e are, Judge." At that point, defense counsel made a motion for judgment of acquittal on the
basis that the State failed to present any proof of the Appellant's age, which was a necessary element of
aggravated statutory rape. Defense counsel argued, "They must prove Mr. Sexton is at least ten years older than
the victim, and in this case, they have not done so."

The prosecutor responded that he thought the victim's mother testified about the Appellant's age but that he
would recall Investigator Dunn to the stand "out of an abundance of caution." Defense counsel asserted that the
trial court should not allow the State to reopen its proof "because the State just rested." The prosecutor noted that
"we haven't announced to the jury that we’ve rested" and contended that the trial court should allow the State to
reopen its proof so that the State could have Investigator Dunn testify about the Appellant's age from the
Appellant's driver's license. The prosecutor noted, "And there's certainly circumstantial evidence already in the
record. [The victim's mother] testified that [the Appellant] had a daughter that was one-year older than her
daughter. So unless he had that daughter at the age of nine, he would be at least ten years older than [the
victim]."

The trial court ruled that the "official resting of the case" had to occur in the presence of the jury and that the
State could recall Investigator Dunn to the stand. The State recalled Investigator Dunn, and he testified that
information from the Appellant's driver's license showed the Appellant was born in March 1972. At the
conclusion of his testimony, the State pronounced that it was resting its case-in-chief.

"Aggravated statutoiy rape is the unlawful sexual penetration of a victim by the defendant, or of the defendant
by the victim when the victim is at least thirteen (13) but less than eighteen (18) years of age and the defendant
is at least ten (10) years older than the victim." Tenn. Code Ann. § 39-13-506(c). Thus, the State was required to
prove that the Appellant was at least twenty-six years old on May 9, 2015.

Initially, we disagree with the trial court's determination that the State had not closed its proof when it requested
to recall Investigator Dunn to the stand. After Agent Schmittgen's testimony, the State advised the trial court that
it did not intend to call any additional witnesses. The next morning, the State advised the trial court that it was
resting its case-in-chief. Based on the State's assertions, defense counsel made, and the trial court entertained, a
motion for judgment of acquittal. Therefore, in our view, the State had closed its proof even though it had not
done so formally in front of the jury. See Tenn. R. Crim. P. 29(b) (providing that defendant may make a motion
or trial court may order judgment of acquittal "after the evidence on either side is closed"); State v. James, 315
S.W.3d 440,455 (Tenn. 2010) (providing that Rule 29(b) "empowers the trial judge to direct a judgment of
acquittal when the evidence is insufficient to warrant a conviction either at the time the (SJtate rests or at the
conclusion of all the evidence").
This court has observed that "the decision of whether to reopen die proof for further evidence is within the
discretion of the trial court, and the decision of the trial court will not be set aside unless there is a showing that
an injustice has been done." State v. Brock, 940 S.W.2d 577, 580 (Tenn. Crim. App. 1996). Here, the trial court
allowed the State to recall Investigator Dunn briefly in order to present additional proof of the Appellant's age.
As noted by the State, the State already had presented circumstantial evidence that the Appellant was at least ten
years older than the victim. Specifically, the victim's mother had testified that the Appellant's daughter was in
high school and was about one year older than the sixteen-year-old victim, and the jury was able to view the
Appellant in the courtroom.2 Thus, we are unable to conclude that the trial court abused its discretion or that an
injustice was done to the Appellant.

B. Career Offender
The Appellant claims that the trial court erred by sentencing him as a career offender. The State argues that the
trial court did not err. We agree with the State.
On November 17, 2017, the State filed a notice of intent to seek enhanced punishment as a career offender
pursuant to Rule 12.3, Tennessee Rules of Criminal Procedure. The notice listed the following felony
convictions for the Appellant from the Nineteenth Circuit Court of St. Lucie County, Florida: (1) "Larceny X 5,"
burglary of a conveyance, and possession of burglary tools with a conviction date of July 26, 1994; (2) burglary
of a conveyance and damage to property with a conviction date of January 17, 1995; (3) burglary of a dwelling
with a conviction date of February 3, 1997; (4) grand theft of a motor vehicle committed on October 8, 1998,
with a conviction date of December 30, 1998; and (5) grand theft of a motor vehicle committed on November
13, 1998, with a conviction date of December 30, 1998. The notice also listed attempted bribery of a witness
with a conviction date of April 5, 2017, in the Lawrence County Circuit Court.

At the Appellant's January 4, 2018 sentencing hearing, the State introduced his presentence report into evidence.
Defense counsel objected to the admission of the report on hearsay grounds, but the trial court overruled the
objection. According to the report, the then forty-five-year-old Appellant was married and had one daughter, one
son, and two stepsons. The Appellant told the investigating officer who prepared the report that he graduated
from Westwood High School in St. Lucie, Florida. However, when the officer contacted Melodie Golden in the
attendance office at Westwood, Golden reported that the Appellant dropped out of Westwood after the ninth
grade and did not attend any other high school in the St. Lucie School District. In the report, the Appellant
described his physical health as "good" and his mental health as "fair" and stated that he began drinking alcohol
when he was fifteen years old but stopped drinking in 2014. The Appellant denied using any nonprescription or
illegal drugs and said that he had been the "owner/operator" of Sexton Truck Company since 1996.

The report showed that the Appellant began committing crimes when he was twenty-one-years old and that he
had numerous prior felony and misdemeanor convictions in St. Lucie, Florida, and Lawrence County, Tennessee.
• Of the prior convictions in the report, the State advised the trial court that it was relying on the following
convictions in St. Lucie, Florida, to establish the Appellant's status as a career offender: two convictions on
December 30, 1998, for grand theft of a vehicle; a conviction on February 3, 1997, for burglary of a dwelling; a
conviction on January 17, 1995, for burglary of a conveyance; and a conviction on July 26, 1994, for grand
larceny. The State also advised the trial court that it was relying on a September 6, 1989 conviction in St. Lucie,
Florida, forescape, which was not listed in the presentence report. For the six convictions, the State introduced
into evidence photocopies of certified judgments of conviction. The State advised the trial court that it had
introduced the original certified judgments of conviction into evidence at another sentencing hearing for the
Appellant on April 5, 2017, and requested that the trial court take judicial notice of the originals from the
previous hearing. The Appellant objected to the documents as hearsay, but the trial court overruled the objection.
Finally, the State introduced into evidence a certified judgment of conviction from the Lawrence County Circuit
Court for a 2017 conviction of attempted bribery of a witness, a Class D felony. The State argued that based on
the Appellant's seven prior felony convictions, he qualified as a career offender.

The trial court noted that aggravated statutory rape was a Class D felony and that the Appellant had to have at
least six prior Class D or E felony convictions in order to be sentenced as a career offender. The court found that
the Appellant's six prior convictions in Florida qualified him as a career offender and sentenced him as a Range
III, career offender to twelve years in confinement.

On appeal, the Appellant contends that the trial court erred by considering his presentence report and the copies
of the certified judgments of conviction from Florida because the documents were hearsay. We conclude that the
trial court properly used the prior convictions to sentence the Appellant as a career offender.

As noted by the trial court, aggravated statutory' rape is a Class D felony. Tenn. Code Ann. § 39-13-506(d)(3).
Relevant to this case, a defendant is a career offender if the defendant has received "[a]t least six (6) prior felony
convictions of any classification if the defendant's conviction offense is a Class D or E felony." Tenn. Code Ann.
§ 40-35-108(a)(3). If a trial court determines that a defendant is a career offender, the defendant shall receive the
maximum punishment in the range for a Range III offender. Tenn. Code Ann. § 40-35-108(c). The maximum
punishment for a Range III offender convicted of a Class D felony is twelve years. Tenn. Code Ann. § 40-35112(c)(4). Furthermore, the release eligibility for a career offender is sixty percent less sentence credits earned
and retained by the defendant. Tenn. Code Ann. § 40-35-501(f).

As to the Appellant's claim that his presentence report was inadmissible hearsay, Tennessee Code Annotated
section 40-35-209(b) provides that in a sentencing hearing, reliable hearsay is admissible as long as a defendant

"is accorded a fair opportunity to rebut any hearsay evidence so admitted." "This court has consistently held the
presentence report to be reliable hearsay." State v. Adams, 45 S.W.3d 46, 59 (Tenn. Crim. App. 2000). Therefore,
the trial court did not err by using the Florida convictions listed in the Appellant's presentence report to sentence
him as a career offender.
Moreover, the State introduced into evidence photocopies of certified judgments of conviction for the offenses,
which the State had introduced into evidence at a prior sentencing hearing for the Appellant. The Lawrence
County Circuit Court Clerk attached a document to the photocopies, certifying that they were true and correct
copies of the original certified judgments filed in the prior hearing. Moreover, the State requested that the trial
court take judicial notice of the originals, and the trial court did so. See Tenn. R. Evidence 201 (b), (c). In our
view, the better practice would have been for the State to introduce original certified judgments of conviction
into evidence at the sentencing hearing in the present case. In any event, the presentence report's being reliable
hearsay "[makes] it unnecessary in most instances to introduce certified copies of convictions." State v. Alton
Tappan, No. W2006-00168-CCA-R3-CD, 2007 Tenn. Crim. App. LEXIS 414, 2007 WL 1556657, at *7 (Tenn.
Crim. App. at Jackson, May 29, 2007) (citing State v. Adams, 45 S.W.3d 46, 59 (Tenn. Crim. App. 2000)).
Therefore, we conclude that the trial court properly sentenced the Appellant as a career offender.

We note that the Appellant also contends that the trial court erred by finding that he had six or more prior
qualifying felonies because "multiple convictions resulting from a crime spree that were adjudicated in a single
proceeding could not be used to bump the sentencing range" and because "a 'prior conviction' means a
conviction that has been adjudicated prior to the commission of the more recent offense for which sentence is to
be imposed." However, the Appellant does not make any argument as to how those two principles apply to his
convictions. Therefore, any issue he has attempted to raise in that regard has been waived. See Tenn. Ct. Crim.
App. R. 10(b); Tenn. R. App. R 27(a)(7).

III. Conclusion
Based upon the record and the parties' briefs, we affirm the judgment of the trial court.

NORMA MCGEE OGLE, JUDGE

Footnotes

1
Because the Joyners share a surname, we will refer to them by their first names for clarity.
2
We note that at the outset of trial, prior to the jury's entering the courtroom, the trial court commented, "I
assume, just by looking at Mr. Sexton, and .from the date of his birth alleged in the indictment, that there's no
way the jury could conclude that lie’s less than ten years [older than the victim]."

THE COURT:

1

Do you solemnly swear or

2

affirm that the testimony you give in this case

3

will be the truth,

4

the truth.
MR.

5

the whole truth,

COLEMAN:

and nothing but

Your Honor,

I'll obj ect
If she needs

6

to her testifying from her computer.

7

that to refresh her recollection,

8

do that from time-to-time but I think she needs to

9

testify fr-om her memory.
GENERAL HOWELL:

10

I think she can

These are business
I

11

records from the District Attorney's Office.

12

don't know if she has to testify from it,

13

but exhibits have certain marks on them that she

14

can identify.

15

THE COURT:

Well,

Judge,

hopefully you can

16

unring the bell with the Judge better than you

17

might with a jury,

18

we'll may — we'll argue about whether or not the

19

Court should consider it or give it any weight.

Let me hear from her and then

20
21

KIMBERLY MCGEE,

22

having been first duly sworn

23

was examined and testified as follows:

24
25

DIRECT EXAMINATION
By GENERAL HOWELL:
49-1
FRANKLIN COUR7 REPORTERS A rf rf j! j! 615/790-1525

1
2

Q-

You are Kimberly McGee with the

District Attorney's General Office?

3

A.

Yes,

4

Q-

And what is your position with the

5

sir.

D.A.'s office?

6

A.

I'm the victim witness coordinator.

7

Q-

And were you so employed back on

8

December 15th,

of 2017?

9

A.

I was.

10

Q-

And at my request,

did you seek

11

certain records and information from my clerk's

12

office in Florida?

13

A.

I did.

14

Q-

And what clerk's office was that?

15

A.

The St. Lucia County,

16
17
18

Florida

Clerk's Office.
Q-

All right.

How did you communicate

with them to make this request?

19

A.

By e-mail.

20

Q-

And what records or information did

21
22
23
24
25

you request from the clerk's office down there?
A.

I requested indictments to show

dates of offense.
Q.

All right.

And did you give them

case numbers that you wanted the indictments for?
50 -I
FRANKLIN COURT REPORTERS >s a a * x

615/790-1525

1

A.

I did.

2

Q-

What were those?

3

A.

9 8 - 4 413-C FA,

4

Q-

And the copies of the Florida

and 98-4003-CFA.

5

Indictments with the accompanying paperwork we've

6

now made exhibits.

7

those ?
A.

8
9

How did we come to possess

They e-mailed me the copies and I
I asked them for certified

printed them off.

10

copies and they are supposed to be forwarding that

11

in the mail but we have not received it yet.

12
13

Q-

And what e-mail address

did that paperwork come from?

14
15

All right.

Lucia Clerk

A.

Records request at St.

Q.

And there's a date down at the

dot com.

16

Does that

12-15 with the exhibits.

17

bottom,

18

correspond with when you would receive these items

19

by e-mail?
A.

20

Yes,

sir.

GENERAL HOWELL:

21

That's all,

Judge.

22
CROSS EXAMINATION

23
24
25

BY MR.

COLEMAN:
Q.

Ms.

McGee,

did you speak with
51 -I

FRANKLIN COUR7 REPORTERS

aaaa£

615/790-1525

THE COURT:

1

All right.

Any

2

other questions of this witness from

3

either side?

4
Witness excused

5
6

GENERAL HOWELL:

7
8

so,

No.

I don't believe

Judge.
THE COURT:

... 9

I.'ve studied a little bit

10

more that affidavit concerning the November 1997

11

offense,

12

Larry Sexton admitting he — that he had taken the

13

Camaro about a year earlier,

14

officers that there had been a report of the theft

15

oh November 13,

16

the dealership reporting the theft had said that

17

Larry Sexton had test driven that car about three

18

days earlier and might have made an alternative set

19

of keys,

20

the officer that he found keys in the car after

21

hours.

22

and interestingly enough, not only was

911 informed the

exactly a year earlier,

which conflicted with Mr.

All right.

and that

Sexton's telling

The Court finds beyond a

23

reasonable doubt that Larry Sexton has more than --

24

a six or more felony convictions where both the

25

offenses and the convictions occurred before the
53 -J
FRANKLIN COURT REPORTERS *****

615/790-1525

1

anybody by telephone with the clerk's office?

2

A.

I did.

3

Q.

And who did you speak with in the

4

clerk's office?
A.

5

I don't

I spoke with the clerk.

I think I

7

Johnnie Winters is the name of the clerk.

8
9
10

Q.

Is that the name of

is that who

you spoke with or the name of the person,

the

elected official who is the court clerk?
A.

11
12

it ' s

I couldn't remember the name,

6

elected official.

13

Q-

That' s not the

That’s the clerk.

Joseph Smith is the clerk.

Joseph Smith was the elected clerk?

14

And you spoke with a person named Johnnie in their

15

office ?

Did you speak to them on the phone?
A.

16

I did.

they gave me the

That's

17

e-mail address and everything that that's how they

18

wanted to correspond.

19

on letterhead and e-mail that to them and what I

20

was reguesting, but I spoke to him on the phone,

21

then I typed that up,

22

they

23

I had to type something up

e-mailed it to them and then

MR. COLEMAN:

I don't believe I

24

have any further questions of this

25

witness.
52 -I
FRANKLIN COUR1 REPORTERS

aa

a

615/790-1525

